TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  System Errors and Lower Than Expected
                      Tax Return Volumes Affected the
                   Implementation of the Modernized e-File
                 System for Individual Tax Return Processing



                                       September 8, 2010

                              Reference Number: 2010-40-111




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


SYSTEM ERRORS AND LOWER THAN                           during the development and implementation of
EXPECTED TAX RETURN VOLUMES                            MeF Release 6.1.
AFFECTED THE IMPLEMENTATION OF                         Our review identified that tax returns were
THE MODERNIZED E-FILE SYSTEM FOR                       erroneously rejected from the MeF system. Of
INDIVIDUAL TAX RETURN PROCESSING                       the 29 MeF system business rules we reviewed,
                                                       19 (66 percent) appeared to either reject tax
                                                       returns in error or reject tax returns without
Highlights                                             providing accurate explanation as to why the tax
                                                       returns were rejected.
Final Report issued on September 8,
                                                       In addition, the IRS anticipated processing
2010                                                   9.3 million tax returns through its MeF system as
                                                       of April 15, 2010. However, the IRS only
Highlights of Report Number: 2010-40-111 to            received 752,320 tax returns (8.1 percent). Due
the Internal Revenue Service Commissioner for          to the low volume of tax returns received
the Wage and Investment Division.                      through the MeF system, the IRS was not able
IMPACT ON TAXPAYERS                                    to assess its capability to handle large volumes
                                                       of tax returns.
The Internal Revenue Service (IRS) is in the
process of replacing its existing electronic filing    WHAT TIGTA RECOMMENDED
(e-file) platform, referred to as “the Legacy e-File   TIGTA recommended that the Commissioner,
system,” with a modernized, Internet-based             Wage and Investment Division:
system, the Modernized e-File (MeF) system.
The MeF system provides real-time processing           •   Establish processes to timely monitor the
of tax returns and extensions that will improve            transmitting and processing of individual tax
error detection, standardize business rules, and           returns through the MeF system.
expedite acknowledgments. The MeF system
also allows taxpayers to attach documents to           •   Work with tax return transmitters and the
their tax returns.                                         States to identify and address issues that
                                                           prevented them from using the MeF system
WHY TIGTA DID THE AUDIT                                    and encourage them to use it during the
                                                           2011 Filing Season.
This audit was initiated because the MeF system
aims to increase e-file use through a system that      The IRS agreed with our recommendations. It
is efficient and easy to access, use, and              employed several processes to validate the
maintain. The overall objective of this review         accuracy of individual tax return processing for
was to determine whether e-filed individual            the 2010 Filing Season. It also plans to use
income tax returns transmitted through the             Business Objects for the 2011 Filing Season to
MeF system are processed timely and                    identify trends that may indicate errors in the
accurately in a manner consistent with tax             rejection or acceptance of tax returns and to
returns processed in the Legacy e-File system.         ensure the explanations provided for rejected
                                                       returns are correct. The IRS has also begun to
WHAT TIGTA FOUND                                       work with tax return transmitters and the States
Although the IRS has processed business tax            to identify and address issues that prevented
returns through the MeF system since                   them from using the MeF system and encourage
February 2004, the processing of individual tax        them to use it during the 2011 Filing Season. It
returns presented a significant challenge. The         plans to continue to leverage existing external
migration of individual tax returns to the             venues for the MeF system to maximize its
MeF system is a joint venture among the IRS,           partnership, outreach, and customer service to
the tax return preparation industry, and the           external stakeholders. Finally, the IRS plans to
States. The IRS established a number of tools          identify and implement system performance
to share information and assist its stakeholders       enhancements.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 8, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – System Errors and Lower Than Expected Tax
                             Return Volumes Affected the Implementation of the Modernized e-File
                             System for Individual Tax Return Processing (Audit # 200940047)

 This report presents the results of our review to determine whether electronically filed (e-filed)
 individual income tax returns transmitted through the Modernized e-File (MeF) system are
 processed timely and accurately in a manner consistent with tax returns processed in the Legacy
 e-File system. This audit was included in the Treasury Inspector General for Tax Administration
 Fiscal Year 2009 Annual Audit Plan under the major management challenge of Implementing
 Tax Law Changes.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
 Services), at (202) 622-5916.
                                 System Errors and Lower Than Expected
                         Tax Return Volumes Affected the Implementation of the
                       Modernized e-File System for Individual Tax Return Processing




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          System Errors and Lower Than Expected Tax Return Volumes
          Affected Implementation and the Ability to Evaluate
          System Performance .................................................................................... Page 5
                    Recommendations 1 and 2: .............................................. Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Individual Tax Return Forms and Schedules Included
          for Processing in Modernized e-File Release 6.1 Deployment ................. Page 17
          Appendix V – Modernized e-File Business Rule Issues Identified
          During Pre-Processing Testing ..................................................................... Page 19
          Appendix VI – Modernized e-File Business Rule Issues Identified
          During Processing As of April 21, 2010 ....................................................... Page 23
          Appendix VII – Management’s Response to the Draft Report ..................... Page 28
                         System Errors and Lower Than Expected
                 Tax Return Volumes Affected the Implementation of the
               Modernized e-File System for Individual Tax Return Processing




                               Abbreviations

e-file or e-filed       Electronic Filing or Electronically File(d)
IRS                     Internal Revenue Service
MeF                     Modernized e-File
PDF                     Portable Document Format
SSN                     Social Security Number
XML                     Extensible Markup Language
                                System Errors and Lower Than Expected
                        Tax Return Volumes Affected the Implementation of the
                      Modernized e-File System for Individual Tax Return Processing




                                              Background

The Internal Revenue Service (IRS) is in the process of replacing its existing electronic filing
(e-file) platform, referred to as “the Legacy e-File system,” with a new modernized,
Internet-based system. The IRS refers to its modernized system as the Modernized e-File (MeF)
system. With the MeF system, the IRS aims to
increase e-file use through a system that is efficient
and easy to access, use, and maintain.                          The MeF system streamlines
                                                                             tax return filing processes
The MeF system is being developed and implemented           and provides enhanced service to
over multiple phases. When completed, it will provide         taxpayers, tax preparers, and
a single method for filing all IRS tax returns, forms,      electronic tax return transmitters.
and schedules via the Internet. The MeF system
provides real-time processing of tax returns and
extensions, which will improve error detection, standardize business rules,1 and expedite
acknowledgments. It also allows taxpayers to attach documents to their tax returns in a portable
document format (PDF).
The IRS first introduced the MeF system in February 2004 for business taxpayers. Since that
time, the IRS has expanded it to include excise and partnership tax returns with MeF Release 6.1,
including U.S. Individual Income Tax Returns (Form 1040). On February 17, 2010, the MeF
system began accepting transmissions of the Form 1040 and 22 related individual forms and
schedules filed during the 2010 Filing Season2 (see Appendix IV). The IRS estimated these
forms and schedules could account for 72 million of the approximately 90 million individual tax
returns e-filed during the 2009 Filing Season. Future releases of the MeF system will include
full disaster recovery capability and the remaining Form 1040 related forms (approximately
120 forms).
The IRS plans to fully implement the MeF system in Processing Year 2012. This final release
will include all individual tax returns for Tax Year 2011 and provide the capability to accept
prior year individual tax returns for Tax Years 2009 and 2010. The current e-file system is
scheduled to be retired at the end of the 2012 Filing Season (October 2012). IRS management
stated that they will continue to evaluate the planned retirement of the current e-file system and
will make adjustments to the date as necessary. The IRS estimates MeF Release 6.1 cost at
$78.7 million and a total cost of $673 million to develop, operate, and maintain the MeF system
through Fiscal Year 2020, which is the project’s planned completion date.


1
    Specific criteria tax returns must meet before they are accepted for processing.
2
    The period from January 1 through April 15 when most individual income tax returns are filed.
                                                                                                           Page 1
                              System Errors and Lower Than Expected
                      Tax Return Volumes Affected the Implementation of the
                    Modernized e-File System for Individual Tax Return Processing



MeF system processing of individual tax returns will provide enhanced service to taxpayers, tax
preparers, and electronic tax return transmitters. Figure 1 compares the planned functionality for
the MeF system with that of the existing Legacy e-File system.
                 Figure 1: Comparison of Legacy e-File and MeF Systems

               Legacy e-File System                                            MeF System

    Utilizes different data formats for various types Consistent file format for tax forms and
    of tax return transmissions.                      schedules (extensible markup language
                                                      (XML)).
    Does not accept tax return transmissions                 Accepts tax return transmissions year-round.
    between mid-October and January each year.
    Tax return transmissions are received in a               Tax return transmissions are received in a
    batch return system with tax returns being               transaction-based system with tax returns
    extracted and processed at three points each             processed when received.
    day. Acknowledgement of tax return receipts              Acknowledgement of tax return receipts
    provided within 2 days of receipt.                       provided to the transmitters within a few
                                                             minutes of their transmissions.
    A single validation process with generic reject3         Multilevel validation process with detailed
    messages                                                 reject messages to provide more specific
                                                             information on the reason a tax return was
                                                             rejected.
    Does not accept tax return supporting                    Accepts tax return supporting documentation
    documentation.                                           in PDF format.
    Does not allow the filing of prior year tax              Will allow the filing of prior year tax returns
    returns during the current processing year.              during the current processing year.
    Does not allow the filing of an amended                  Will allow the filing of an amended
    individual tax return.                                   individual income tax return.
Source: IRS documentation of the functionality of the Legacy e-File and MeF systems.




3
 Tax returns submitted through e-filing must meet an established set of requirements before being accepted for
processing. Tax returns that do not meet one or more of these requirements are rejected back to the taxpayer for
correction.
                                                                                                            Page 2
                               System Errors and Lower Than Expected
                       Tax Return Volumes Affected the Implementation of the
                     Modernized e-File System for Individual Tax Return Processing



The MeF System Uses a Multilevel Validation Process to Ensure Tax Returns Meet Filing
Requirements
Unlike the Legacy e-File system processing of e-filed tax returns, the MeF system uses three
levels of validation. Once a tax return has passed all three levels of validation, it will enter the
IRS’ tax return processing stream. The three levels of validation include:
    •    Level 1 – Schema Validation – A MeF system tax return is divided into a series of
         different data structures. A schema defines the data elements within each data structure
         and the interrelationships among the data elements (i.e., what is required, field length,
         data type, allowable field values, etc.). The MeF system verifies that the data structure of
         each tax return transmission file meets the requirements defined in the individual
         schemas. If an error is found, the tax return is rejected and returned to the transmitter for
         correction.
    •    Level 2 – National Account Profile4 Checks – The taxpayer, spouse, and dependent name
         controls5 and Taxpayer Identification Numbers on a tax return must match the
         information on the National Account Profile before the IRS will accept the tax return for
         processing. The MeF system conducts the same basic verification as the Legacy e-File
         system. However, the MeF system verifies transmissions on a transaction basis, while
         the Legacy e-File system verifies transmissions using batch processing. As with schema
         validations, a tax return is rejected if it fails one or more of the National Account Profile
         checks. Examples of these checks include verifying that a Social Security Number (SSN)
         listed on the tax return is valid and that the name and SSN match IRS records.
    •    Level 3 – Business Rule Checks – The IRS established criteria or business rules each tax
         return must meet before it can be processed electronically. These rules are designed to
         validate basic requirements on a tax return, such as income limits for tax credits and
         deductions and the need to attach a specific schedule if certain conditions are present on
         the tax return. A tax return may be rejected if one or more of the business rules are not
         met.
This review was performed at the Wage and Investment Division Office of Electronic Tax
Administration Headquarters in Washington, D.C.; the Customer Account Services Submission
Processing function Headquarters in Atlanta, Georgia; and the Modernization and Information
Technology Services organization Headquarters in New Carrollton, Maryland. Our testing was
completed during the period November 2009 through May 2010. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those

4
  The National Account Profile is a compilation of selected entity data from the IRS Master Files, which are the
databases that store various taxpayer information. The National Account Profile includes all valid and invalid
taxpayer entity information.
5
  The name control is the first four significant letters of a taxpayer’s last name that the IRS uses in connection with
the taxpayer’s SSN to identify the taxpayer, spouse, and dependents.
                                                                                                                Page 3
                           System Errors and Lower Than Expected
                   Tax Return Volumes Affected the Implementation of the
                 Modernized e-File System for Individual Tax Return Processing



standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 4
                          System Errors and Lower Than Expected
                  Tax Return Volumes Affected the Implementation of the
                Modernized e-File System for Individual Tax Return Processing




                                Results of Review

System Errors and Lower Than Expected Tax Return Volumes
Affected Implementation and the Ability to Evaluate System
Performance
Although the IRS has processed business tax returns through the MeF system since
February 2004, processing individual tax returns through this system presented a significant
challenge for the IRS. Adding individual income tax returns to the MeF system is a significant
                                       undertaking when compared with business tax returns.
                                       For example, processing individual tax returns requires:
    Individual tax return processing
   through the MeF system involves         •   Developing formats and data structures as well as
   more complex programming and                the attributes necessary for the various tax forms
       system requirements than
    business tax return processing.
                                               and schedules individuals may be required to file.
                                           •   Expanding the MeF system, including adding
                                               additional computer equipment, so that a much
       higher volume of tax returns can be received and processed.
   •   Developing interfaces with 21 different IRS system applications.
   •   Establishing a new and much more extensive set of verifications or business rules to
       ensure that tax returns filed have a high probability of being accepted and processed
       without error. The IRS was also required to incorporate several important tax law
       changes for a number of the business rules.
As of April 15, 2010, the IRS successfully accepted 618,839 individual tax returns transmitted
through the MeF system for processing.

The IRS developed tools and processes to inform and engage stakeholders in the
implementation of MeF system individual tax return processing
The migration of individual tax returns to the MeF system is a joint venture among the IRS, the
tax return preparation industry, and the various States. The IRS recognizes that successful
implementation and migration to the MeF system for individual tax returns hinges on its
stakeholders’ ability to develop and upgrade their tax return preparation and transmission
programs and processes. The IRS established a number of tools to share information and assist
its stakeholders during the development and implementation of MeF Release 6.1 including:


                                                                                           Page 5
                           System Errors and Lower Than Expected
                   Tax Return Volumes Affected the Implementation of the
                 Modernized e-File System for Individual Tax Return Processing



   •   Holding monthly Form 1040 MeF working group calls with participants from the States
       and tax return transmitters, preparers, and software developers to discuss their concerns,
       including what tax forms and schedules would be allowed, issues with business rules, and
       difficulties experienced with transmissions.
   •   Holding monthly Form 1040 MeF Executive Steering Council calls with a select group of
       cross-functional IRS and tax industry stakeholders to discuss common interests and
       concerns related to the design, development, and deployment for individual income tax
       return processing. The IRS began these calls in the fall of 2007, with the start of
       development of the MeF system for individual tax returns, and continued the calls
       throughout development and implementation of MeF Release 6.1.
   •   Establishing a MeF 1040 mailbox to allow external stakeholders such as tax return
       transmitters to submit technical and procedural questions via electronic mail to the IRS.
       The IRS received 303 emails to this mailbox between October 2009 and April 2010.
   •   Establishing various MeF system informational pages on IRS.gov to provide one source
       for information related to MeF. Available information includes the system’s operational
       status, updates on recent issues affecting the MeF system, and details about certain
       business rules that are affecting tax return transmissions.
   •   Offering stakeholders the ability to receive automatic email alerts. These alerts may
       include updates about system issues, information on business rules for problems that have
       developed, and changes to publications and relevant data requirements and formats. The
       IRS issued 81 automatic email alerts related to the MeF system between October 2009
       and April 2010.
Once the IRS began accepting individual tax returns through the MeF system, it continued to
provide support to external stakeholders by holding daily/weekly conference calls to discuss
immediate concerns or problems being experienced. In addition, the IRS established individual
points of contact within the IRS to enable stakeholders to raise concerns and receive assistance
during the last phase of testing and initial startup of tax
return transmissions. Overall, comments received from
                                                                   Tax return transmitters we
tax return transmitters we surveyed were consistent in
                                                                surveyed complimented the IRS
complimenting the IRS on sharing information,                  on sharing information, providing
providing needed guidance, and responding to concerns.            guidance when needed, and
                                                               responding to their concerns.
Although the IRS provided significant support to its
stakeholders, our review showed that the IRS did not
develop effective processes to identify errors once MeF system individual tax return processing
began. In addition, the low volume of individual tax return transmissions via the MeF system
makes it difficult to evaluate the success of the system. The MeF system is a critical component
of the IRS’ efforts to modernize its e-file program.

                                                                                           Page 6
                              System Errors and Lower Than Expected
                      Tax Return Volumes Affected the Implementation of the
                    Modernized e-File System for Individual Tax Return Processing



The successful migration of individual tax returns to the MeF system becomes even more
important as the number of taxpayers who e-file continues to grow. As of April 12, 2010, less
than 1 percent of the almost 90 million e-filed individual tax returns were filed through the MeF
system. Recent legislation will result in further increases in the number of tax returns that are
e-filed. The Worker, Homeownership, and Business Assistance Act of 20096 mandated that all
tax return preparers who prepare more than 10 individual tax returns annually must submit tax
returns to the IRS electronically. As the IRS continues to expand MeF system processing of
individual tax returns, the development of processes to identify system errors and increase
participation will assist in achieving the IRS Restructuring and Reform Act of 19987 goal of
receiving at least 80 percent of all tax returns in an electronic format.

Effective processes were not developed to identify MeF system individual tax
return errors
Erroneously rejected tax returns and missing business rules hindered the success of
MeF Release 6.1. Our review of 298 MeF system business rules identified that 19 (66 percent) of
the 29 rules we analyzed as of April 21, 2010, appeared to reject tax returns in error or reject the
tax returns without providing accurate explanations as to why they were rejected. The accuracy
of the explanation provided is essential to the transmitter’s/preparer’s ability to correct the error
condition. Tax returns were erroneously rejected from the MeF system because of incorrect
system requirements and programming errors. Erroneous rejections could result in taxpayers not
receiving tax credits and other tax benefits to which they are entitled. In addition, inaccurate and
confusing explanations of why tax returns are rejected can cause taxpayers to make unnecessary
changes to their tax returns. Appendix VI provides a summary of the errors we identified and
reported to the IRS between February 17 and April 21, 2010.
In a separate review of MeF Release 6.1 system development activities,9 we identified that the
MeF System Development Project Team created plans to ensure required capabilities were
developed by tracing release requirements between the Business System Requirements Report
Final10 and the System Integration and Test Plan.11 However, while the System Integration Test
results provided by the IRS show most application requirements were tested and passed,

6
  Pub. L. No. 111-92, 123 Stat. 2984 (2009).
7
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
8
  We selected these business rules for review based on the volume and concerns identified prior to the IRS accepting
tax returns through the MeF system on February 17, 2010.
9
  Modernized e-File Will Enhance Processing of Electronically Filed Individual Tax Returns, but System
Development and Security Need Improvement (Reference Number 2010-20-041, issued May 26, 2010).
10
   This report presents the customer and system requirements, including system security requirements, authentication
requirements for transmitters, and capability to handle peak tax return transmissions.
11
   This plan should ensure that the test’s purpose is accomplished (the purpose of the test is to accept, integrate, and
test system components received from development until the full system has been successfully built and all
agreed-upon customer requirements are tested).
                                                                                                               Page 7
                           System Errors and Lower Than Expected
                   Tax Return Volumes Affected the Implementation of the
                 Modernized e-File System for Individual Tax Return Processing



supporting test documents provided to us after the audit’s closing conference showed that many
of the requirements were in fact not tested. Many more failed the tests and no indication was
provided to show the defects were corrected. In spite of this conflicting information and the
possibility that some requirements were not tested or working as intended, the IRS deployed
MeF Release 6.1 on February 17, 2010.
In this review we also analyzed system documentation prior to the IRS accepting tax returns
through the MeF system to determine if all of the applicable business rules included in the
Legacy e-File system were programmed for the MeF system. Our analysis identified six
business rules that were missing from the MeF system. These rules affected the Individual
                                           Retirement Account deduction, Additional Child Tax
                                           Credit, Education Credits, Earned Income Tax Credit,
     We identified six business rules      and capital gains and losses. These missing business
   that were not programmed into the       rules could have resulted in taxpayers receiving tax
    MeF system. Incorrect business
     rules could result in taxpayers       credits and other benefits to which they were not
    receiving credits and benefits to      entitled and not receiving those to which they were.
      which they were not entitled.        We notified the IRS that these criteria were missing
                                           from the MeF system prior to it accepting tax return
                                           transmissions through the system. Appendix V
provides a summary of the conditions we identified and reported to the IRS. The IRS took action
to correct two of the six conditions we identified and indicated that the remaining four conditions
were covered by existing MeF system processes or business rules and did not require any
additional action.
The IRS also identified and addressed 22 additional errors or concerns and has provided
guidance to the stakeholder community to ensure the MeF system meets current and future
taxpayer needs. Although the IRS had processes in place to monitor the implementation of the
system, those processes did not provide adequate testing of the accuracy of the tax return reject
process. The IRS did not have a comprehensive plan in place that would provide an adequate
evaluation of all business rules being applied to tax returns submitted through the MeF system.
Adding individual tax return processing for the MeF system required the IRS to create new
processes. Critical processes such as the accepting and rejecting of tax returns were newly
created and required extensive, complex computer programming. The risk for error was
extremely high and required a detailed plan to extensively test and monitor the system’s
implementation. However, the IRS did not have a well documented plan, and the steps it took to
monitor the acceptance and rejection of tax returns did not provide a comprehensive review of
these processes. For example, the IRS selected and reviewed a statistically valid sample of 30 of
each of the tax forms and schedules filed through the MeF system beginning February 17, 2010.
The IRS reviewed each of the sampled tax forms and schedules to determine if the system was
correctly accepting or rejecting the tax returns based on the business rules pertaining to these
forms and schedules. The samples did not ensure every business rule applicable to tax returns

                                                                                            Page 8
                             System Errors and Lower Than Expected
                     Tax Return Volumes Affected the Implementation of the
                   Modernized e-File System for Individual Tax Return Processing



transmitted to the MeF system was evaluated. The IRS is aware that its statistical sampling
process did not test all of the business rules that applied to individual tax returns transmitted
through the system.
In addition, the IRS did not place enough emphasis on testing the tax return rejection process.
The IRS’ primary focus in its statistical testing was to ensure tax returns were properly accepted
for processing; two-thirds of the samples for each tax form or schedule were accepted tax
returns. Almost all of the conditions we identified related to the improper rejection of tax
returns. As of April 15, 2010, 133,481 (18 percent) of the 752,320 tax returns transmitted to the
MeF system were rejected.12 These tax returns were rejected for 1 or more of 202 business rules
in place on April 15, 2010.13
Further reducing the IRS’ ability to receive timely input from tax return transmitters using the
MeF system was that the IRS allowed them to subsequently transmit tax returns rejected by the
MeF system through the Legacy e-File system. The IRS directed the transmitters to temporarily
resubmit some rejected tax returns with specific conditions through the Legacy e-File system
until errors in the MeF system could be corrected. Resubmitting tax returns through the Legacy
e-File system in these instances allowed the IRS to timely accept and process affected tax returns
and reduce the burden on the transmitters and the taxpayers. However, the IRS had no
guidelines in place as to under what circumstances transmitters were to use the Legacy e-File
system when a tax return was rejected. Allowing transmitters to use both e-file systems could
result in the IRS not receiving real-time input from its stakeholders on potential concerns that
may have resulted from the incorrect rejection of tax returns by the MeF system.

Lower than expected tax return transmissions limit the IRS’ ability to evaluate the
performance of the MeF system
The IRS anticipated processing 9.3 million tax returns through its MeF system by April 15, 2010.
However, the IRS only received 752,320 tax returns (8 percent). Due to the low volume of tax
returns received through the MeF system, the IRS was not able to assess the capability of the
system to handle large volumes of tax returns. Recognizing the challenges in implementing the
MeF system for individual tax returns, the IRS developed a Volume Management Plan to
manage the volume of individual tax returns and forms received through the MeF system. The
MeF Release 6.1 included a plan to effectively manage the potentially large volume of individual
tax returns to be processed. This plan incorporated a careful approach by limiting the volume of
forms for processing in Calendar Year 2010 so that the IRS and tax return transmitters had an
opportunity to observe system behavior and responses. Figure 2 shows the volume of individual


12
   A tax return may be submitted and rejected by the MeF system more than one time.
13
   A total of 419 business rules were programmed in the MeF system as of April 15, 2010. However, the tax returns
transmitted as of April 15, 2010, only violated 202 of these rules. No tax return transmitted had conditions that
violated one of the remaining 217 business rules.
                                                                                                         Page 9
                              System Errors and Lower Than Expected
                      Tax Return Volumes Affected the Implementation of the
                    Modernized e-File System for Individual Tax Return Processing



tax returns the IRS estimated MeF Release 6.1 would be able to process during the periods
specified based on agreements with transmitters.
               Figure 2: MeF System Volumes for Individual Tax Returns14

                                                          Tax Return Volumes
                      Date                        Estimated                         Actual
          February 17–28, 2010                    1.4 million                         55,603
          March 1–31, 2010                        4.0 million                        319,184
          April 1–15, 2010                        3.9 million                        377,533
         Source: IRS estimated volume based upon adjusted Form 1040 volumes for Tax Year 2009 and
         actual volume per IRS E-File Reports of actual tax return receipts for the 2010 Filing Season.

In addition, the Volume Management Plan expected 16 States and 33 tax return transmitters to
participate. As of February 17, 2010, 10 States and 11 transmitters had met the requirements to
participate in the MeF system. States and transmitters had to notify the IRS several months prior
to the filing season that they would participate in the
MeF system. Once approved by the IRS, the participant
would have to successfully complete the IRS testing               As of April 15, 2010, only
process that began on November 2, 2009. As of                  11 States and 11 transmitters
                                                                   had participated, which
April 15, 2010, only 11 transmitters and 11 States                contributed to lower than
participated in the MeF system.                                expected tax return volumes.
IRS management indicated that the number of
participants and the associated volume of tax return
transmissions were low because participation in the MeF system was voluntary for the
2010 Filing Season. The IRS also indicated that budget cuts and the lagging economy may have
impacted some States’ ability to complete the development of their systems in time to participate
this filing season. For some participants, using the MeF system requires modifying their current
e-file system or developing a new system to conform to the XML format.
We surveyed six tax return transmitters with varying levels of participation in the MeF system to
determine what factors influenced their participation.15 We received responses from four of the
six transmitters we surveyed. Three of the four transmitters who responded were not
participating on February 17, 2010, and indicated that concerns with the stability of the MeF
system influenced their decision on whether to participate in using the system.

14
   The estimated totals and actual volumes for the February, March, and April time periods do not include State
income tax returns and Applications of Automatic Extension of Time to File U.S. Individual Income Tax Return
(Form 4868).
15
   We selected two tax return transmitters participating on February 17, 2010; two transmitters who began
participating after February 17, 2010; and two transmitters who were not participating as of March 9, 2010.
                                                                                                          Page 10
                          System Errors and Lower Than Expected
                  Tax Return Volumes Affected the Implementation of the
                Modernized e-File System for Individual Tax Return Processing



   •   Two transmitters chose not to participate until after April 15, 2010, because of concerns
       with the ability of the system to be continuously available to receive tax return
       transmissions and the need to complete internal system redesign.
   •   One transmitter began transmitting individual tax returns on February 18, 2010, but
       stopped using the system on April 11 because of concerns with the system’s ability to be
       continually available to receive tax return transmissions. The concern was that
       unavailability of the system at this critical time (filing season) could significantly delay
       the successful filing and processing of the clients’ tax returns.
When we discussed the lower than expected volumes with IRS management, they cautioned that
their Volume Management Plan was intended to provide volume limits per tax return transmitter
to maintain system performance and not to establish expected tax return receipts. IRS
management agreed that they did not receive a sufficient individual tax return volume to
effectively evaluate the performance of the MeF Release 6.1. They advised us that they will use
the actual data collected to evaluate the MeF system’s capabilities with the hopes it can remain
on schedule with its plans to fully implement the MeF system for individual tax returns.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Establish processes to timely monitor the transmission and processing
of individual tax returns as they are processed through the MeF system. These processes should
include an analysis of available tax return processing data to identify trends that may indicate
errors in the rejection or acceptance of tax returns. These processes should also include an
analysis of the responses generated when a tax return is rejected to ensure the explanation
provided is correct.
       Management’s Response: The IRS agreed with this recommendation. For the
       2010 Filing Season, it employed several processes to validate the accuracy of individual
       tax return processing. For the 2011 Filing Season, the IRS plans to use Business Objects
       (an enterprise reporting and analysis tool) in addition to those processes used for the
       2010 Filing Season to analyze available tax return data to identify trends that may
       indicate errors in the rejection or acceptance of tax returns and ensure the explanation
       provided for rejection of returns is correct.
Recommendation 2: Work with tax return transmitters and the States to identify and address
concerns and conditions that prevented them from participating in the MeF system and
encourage them to participate in it during the 2011 Filing Season.
       Management’s Response: The IRS agreed with this recommendation. It has begun
       working with tax return transmitters and States to identify and address concerns and
       conditions that prevented them from participating in the MeF system and encourage them

                                                                                            Page 11
                   System Errors and Lower Than Expected
           Tax Return Volumes Affected the Implementation of the
         Modernized e-File System for Individual Tax Return Processing



to participate in the MeF system during the 2011 Filing Season. It also plans to continue
to leverage existing external venues for the MeF system (i.e., 1040 MeF Executive
Council, 1040 MeF Working Group, and Federation of Tax Administrators) in
conjunction with MeF system products and services to maximize its partnership,
outreach, and customer service to external stakeholders.




                                                                                  Page 12
                              System Errors and Lower Than Expected
                      Tax Return Volumes Affected the Implementation of the
                    Modernized e-File System for Individual Tax Return Processing



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether e-filed individual income tax
returns transmitted to the MeF system are processed timely and accurately in a manner consistent
with tax returns processed by the Legacy e-File system. To accomplish this objective, we:
I.      Determined whether the IRS properly planned for the deployment of the MeF system for
        individual income tax returns.
II.     Determined whether the MeF system correctly rejected and accepted individual income
        tax returns during processing and whether the IRS ensured that accepted tax returns were
        processed timely and recorded accurately when compared with similar tax returns
        accepted under the Legacy e-File system during the 2010 Filing Season.1
        A. Obtained the MeF system documentation needed to allow us, with the assistance of
           the Treasury Inspector General for Tax Administration Information Technology
           function and the IRS, to obtain and analyze individual income tax returns processed
           by the MeF system during the 2010 Filing Season.
        B. Obtained IRS test results from three separate IRS tests, referred to as “Hub Testing,”
           conducted in January and February 2010.
        C. Obtained data extracts of rejected individual income tax returns and the associated
           business rule2 reasons for those rejections at the earliest points possible in the MeF
           system process. We analyzed this data and judgmentally selected 195 tax returns
           from a population of 3,311 tax returns for which we reviewed the information stored
           on the IRS’ Integrated Data Retrieval System3 to verify whether those returns were
           correctly rejected and proper explanations were provided to the taxpayers. We
           validated the reliability of our computer-processed data by comparing the data
           extracts with information from the IRS’ Integrated Data Retrieval System.
        D. Obtained IRS statistics on volumes of rejected electronic tax returns for both the
           Legacy e-File and MeF systems and compared the volumes by business rule (MeF
           system) to the associated error reject code (Legacy e-File system). For any
           significant variance, we performed further analysis using data from the IRS’


1
  The period from January 1 through April 15 when most individual income tax returns are filed.
2
  Specific criteria tax returns must meet before they are accepted for processing.
3
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 13
                              System Errors and Lower Than Expected
                      Tax Return Volumes Affected the Implementation of the
                    Modernized e-File System for Individual Tax Return Processing



             Integrated Data Retrieval System and the IRS’ Return Request and Display System4
             to determine if the rejection process was properly functioning to ensure against
             returns being incorrectly accepted for processing.
         E. Obtained the MeF system individual income tax return data that were accepted and
            processed from the weekly IRS Individual Return Transaction File5 for all accepted
            and processed tax returns for the period February 17 through April 15, 2010. We
            utilized this data to determine that the MeF system was accepting only those tax
            forms and schedules prescribed for this filing season, that the accepted tax forms and
            schedules were correctly processed, and that IRS corrective actions to the issues we
            identified prior to the filing season (see Appendix V) were effective. In completing
            our analysis, we also reviewed judgmental samples of 100 tax returns from a
            population of 1,515 tax returns that met certain criteria. We validated the reliability
            of the IRS’ Individual Return Transaction File computer-processed data by
            comparison with the IRS’ Integrated Data Retrieval System and Return Request and
            Display System.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: 1) the controls in place to ensure all of the
error reject codes included in the Legacy e-File system were included in the MeF system and
2) controls in place to ensure tax returns were properly accepted or rejected by the MeF system.




4
  The IRS’ Return Request and Display System displays specific tax return and status information for tax returns
processed through the MeF tax system.
5
  The Return Transaction File contains all edited, transcribed, and error-corrected data from the Form 1040 series
and related forms for the current processing year and 2 prior years.
                                                                                                            Page 14
                          System Errors and Lower Than Expected
                  Tax Return Volumes Affected the Implementation of the
                Modernized e-File System for Individual Tax Return Processing



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Deann L. Baiza, Audit Manager
John L. Hawkins, Lead Auditor
Sharon A. Buford, Senior Auditor
Bonnie G. Shanks, Senior Auditor
Linna K. Hung, Auditor




                                                                                    Page 15
                          System Errors and Lower Than Expected
                  Tax Return Volumes Affected the Implementation of the
                Modernized e-File System for Individual Tax Return Processing



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Technology Officer OS:CTO
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner of Operations SE:W
Deputy Commissioner of Services SE:W
Associate Chief Information Officer, Applications Development OS:CTO:AD
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Supervisor, Modern Information Tech Services OS:CTO
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PRA:PEI




                                                                                     Page 16
                          System Errors and Lower Than Expected
                  Tax Return Volumes Affected the Implementation of the
                Modernized e-File System for Individual Tax Return Processing



                                                                             Appendix IV

        Individual Tax Return Forms and Schedules
                 Included for Processing in
         Modernized e-File Release 6.1 Deployment

Form 1040 – U.S. Individual Income Tax Return
Schedule A – Itemized Deductions
Schedule B – Interest and Ordinary Dividends
Schedule C – Profit or Loss From Business
Schedule D – Capital Gains and Losses
Schedule E – Supplemental Income and Loss
Schedule EIC – Earned Income Credit
Schedule M – Making Work Pay and Government Retiree Credits
Schedule R – Credit for the Elderly or the Disabled
Schedule SE – Self-Employment Tax
Form 1099-R – Distributions From Pensions, Annuities, Retirement or Profit-Sharing Plans,
IRAs, Insurance Contracts, etc.
Form 2106 – Employee Business Expenses
Form 2210 – Underpayment of Estimated Tax by Individuals, Estates and Trusts
Form 2441 – Child and Dependent Care Expenses
Form 4562 – Depreciation and Amortization
Form 4868 – Application of Automatic Extension of Time to File U.S. Individual Income Tax
Return
Form 8283 – Noncash Charitable Contributions
Form 8812 – Additional Child Tax Credit
Form 8829 – Expenses for Business Use of Your Home
Form 8863 – Education Credits (American Opportunity, Hope, and Lifetime Learning Credits)

                                                                                     Page 17
                          System Errors and Lower Than Expected
                  Tax Return Volumes Affected the Implementation of the
                Modernized e-File System for Individual Tax Return Processing



Form 8880 – Credit for Qualified Retirement Savings Contributions
Form 8888 – Direct Deposit of Refund to More Than One Account
Form W-2 – Wage and Tax Statement




                                                                        Page 18
                                 System Errors and Lower Than Expected
                         Tax Return Volumes Affected the Implementation of the
                       Modernized e-File System for Individual Tax Return Processing



                                                                                                  Appendix V

       Modernized e-File Business Rule Issues Identified                   1



               During Pre-Processing Testing                                                2




                                      Date IRS
               Issue                  Notified             IRS Action Taken                     Audit Comment
Making Work Pay Credit               10/15/2009      No Action Taken.                    We do not agree that this
claims will incorrectly reject                                                           issue was corrected. We
                                                     The IRS did not agree. It
if only one spouse has an                                                                identified the same issue
                                                     indicated that the current
Individual Taxpayer                                                                      occurring once the IRS
                                                     programming and business
Identification Number, but                                                               began processing tax
                                                     rules addressed our concern.
the other spouse has a valid                                                             returns using the MeF
SSN.                                                                                     system. See Appendix VI.
American Opportunity Credit          11/9/2009       Action Taken.                       We agree that the actions
rules contain the wrong                                                                  taken will correct the
                                                     The IRS had already identified
maximum credit limits,                                                                   issues.
                                                     the issues with two of the
Adjusted Gross Income
                                                     business rules we identified
limits, and qualifying child
                                                     and agreed to the remaining
expense limits.
                                                     issues. Revisions to the
                                                     remaining rules in question
                                                     were completed on 2/1/2010.
The Earned Income Tax                11/9/2009       Action Taken.                       We agree that the actions
Credit rule for individuals                                                              taken will correct the
                                                     Changes were implemented in
with no qualifying children                                                              issue.
                                                     the 12/23/2009 release of the
incorrectly states the age
                                                     business rules.
requirements to include
taxpayers that are age 65.
A rule is missing to deny an         12/1/2009       Action Taken.                       We agree that the actions
Individual Retirement                                                                    taken will correct the
                                                     The rule was planned but was
Arrangement deduction for                                                                issue.
                                                     scheduled for a later system
contributions made for
                                                     release. It was added to
age 70½ and older.
                                                     Version 2009v4.0 of the
                                                     MeF 1040 Business Rules
                                                     released 12/8/2009.


 1
     Specific criteria tax returns must meet before they are accepted for processing.
 2
     A number of the conditions we identified involve errors with more than one MeF system business rule.
                                                                                                            Page 19
                              System Errors and Lower Than Expected
                      Tax Return Volumes Affected the Implementation of the
                    Modernized e-File System for Individual Tax Return Processing



                                   Date IRS
            Issue                  Notified         IRS Action Taken                  Audit Comment
The Child & Dependent Care        12/1/2009   Action Taken.                       We agree that the actions
Credit rule does not include                                                      taken will correct the
                                              Changes were scheduled but
the exception to the 2-income                                                     issue.
                                              were not made before
requirement when either the
                                              2/17/2010. Interim procedures
primary or secondary
                                              are to send these returns to
taxpayer has a date of death.
                                              Error Resolution. A new
                                              business rule was created and
                                              included in the 2/23/2010
                                              updates to the business rules.
The MeF system does not           12/1/2009   Action Taken.                       We agree that the actions
address the reporting                                                             taken will correct the
                                              Changes were scheduled but
requirements for taxable                                                          issue.
                                              were not made before
interest & dividends on
                                              2/17/2010. Interim procedures
Interest and Ordinary
                                              are to send these returns to
Dividends (Schedule B) for
                                              Error Resolution. New
amounts less than $1,500.
                                              business rules were added in
                                              the 2/23/2010 updates.
A rule is missing to verify the   1/26/2010   No Action Taken.                    We do not agree that the
amount of the Motor Vehicle                                                       actions taken corrected the
                                              The IRS did not agree and
Sales Tax Deduction on                                                            issue. We identified the
                                              indicated the MeF system does
Itemized Deductions                                                               same issue occurring once
                                              not need a separate rule since it
(Schedule A), line 7.                                                             the IRS began processing
                                              is pulling the Schedule A,
                                                                                  MeF system tax returns.
                                              line 7, amounts directly from
                                                                                  See Appendix VI.
                                              the worksheet.
A rule is missing to require      1/26/2010   No Action Taken.                    We agree that the IRS did
the Additional Child Tax                                                          not have to take additional
                                              The IRS responded that the
Credit Form (Form 8812)                                                           actions.
                                              MeF system has a
when the Additional Child
                                              corresponding business rule.
Tax Credit is claimed.
A rule is missing to require      1/26/2010   No Action Taken.                    We agree that the IRS did
the Education Credits                                                             not have to take additional
                                              The IRS responded that the
(American Opportunity,                                                            actions.
                                              MeF system has a
Hope and Lifetime Learning
                                              corresponding business rule.
Credits) (Form 8863) when
education credits are claimed.




                                                                                                   Page 20
                               System Errors and Lower Than Expected
                       Tax Return Volumes Affected the Implementation of the
                     Modernized e-File System for Individual Tax Return Processing



                                    Date IRS
             Issue                  Notified         IRS Action Taken                 Audit Comment
A rule is missing to require       1/26/2010   No Action Taken.                   We agree that the IRS did
an amount on the U.S.                                                             not have to take additional
                                               The IRS initially agreed a
Individual Income Tax                                                             actions.
                                               change was needed. On
Return (Form 1040), line 13
                                               4/23/2010, it corrected its
(capital gains and loss), if the
                                               initial response, indicating the
Capital Gains and Losses
                                               condition is already addressed
(Schedule D) not required
                                               by a business rule.
indicator is checked.
The MeF system does not            1/26/2010   Action Taken.                      We agree that the actions
include the variance for the                                                      taken will correct the
                                               The applicable business rule
check of total withholding on                                                     issue.
                                               was revised in the 2/1/2010
Form 1040, line 61, to the
                                               updates to the business rules.
total withholding on all
Wage and Tax Statements
(Form W-2) and Information
Reporting Documents
(Form 1099).
MeF system business rules do       1/26/2010   Action Taken.                      We agree that the actions
not reflect the increased                                                         taken will correct the
                                               The IRS changed the Adjusted
Adjusted Gross Income limits                                                      issue.
                                               Gross Income limits in the
for the Student Loan
                                               2/1/2010 updates to the
Deduction.
                                               business rules.
The MeF system does not            1/26/2010   Action Taken.                      We agree that the action
require the taxpayer to                                                           taken should have
                                               The applicable business rule
provide both the name and                                                         corrected the issue;
                                               was revised in the 2/1/2010
SSN of a qualifying person                                                        however, it resurfaced
                                               updates.
when filing as a Head of                                                          again during the
Household.                                                                        February 11, 2010, Hub
                                                                                  Testing. We notified the
                                                                                  IRS on 2/16/2010.
The MeF system does not            1/26/2010   No Action Taken.                   We agree that the IRS did
include the exception for the                                                     not have to take additional
                                               The IRS responded that the
Earned Income Tax Credit                                                          action.
                                               MeF system has already
qualifying child age
                                               included this change in the
requirement when the
                                               implementation notes for these
qualifying child is
                                               rules.
permanently and totally
disabled.



                                                                                                   Page 21
                               System Errors and Lower Than Expected
                       Tax Return Volumes Affected the Implementation of the
                     Modernized e-File System for Individual Tax Return Processing



                                  Date IRS
             Issue                Notified            IRS Action Taken                Audit Comment
The MeF system incorrectly       1/26/2010      No Action Taken.                  We agree that the IRS did
allows certain personal                                                           not have to take additional
                                                The IRS responded that no
expenses claimed on                                                               action.
                                                additional business rule is
Schedule A, line 28, Other
                                                needed and the disallowance of
Miscellaneous Deductions.
                                                these personal expenses is
                                                being handled correctly.
A rule is missing to require     2/9/2010       Action Taken.                     We agree that the actions
an Information to Claim                                                           taken will correct the
                                                The IRS added a business rule
Earned Income Credit After                                                        issue.
                                                in the 3/5/2010 updates.
Disallowance (Form 8862) on
                                                Interim procedures sent returns
claims filed by taxpayers who
                                                to Submission Processing
need to show that they have
                                                Rejects.
been recertified and are now
eligible.
The MeF system business          2/16/2010      Action Taken                      We agree that the actions
rule is incorrectly applied to                                                    taken will correct the
                                 Issued as an   The issues reported on
tax returns when a taxpayer                                                       issue.
                                 alert on       1/26/2010 are continuing and
filing as Head of Household
                                 1/26/2010.     IRS actions taken on 2/1/2010
provides the name and SSN
                                                are not functioning properly.
of a qualifying child as
                                                The IRS had already identified
required.
                                                this issue and implemented
                                                additional changes on
                                                2/17/2010.




                                                                                                   Page 22
                                System Errors and Lower Than Expected
                        Tax Return Volumes Affected the Implementation of the
                      Modernized e-File System for Individual Tax Return Processing



                                                                                                Appendix VI

      Modernized e-File Business Rule Issues Identified                   1



          During Processing As of April 21, 2010                                                   2




                                            Date IRS
                  Issue                     Notified           IRS Action Taken              Audit Comment
Tax returns are rejecting in               2/17/2010      Action Taken.                   We agree that the
error when the Making Work Pay                                                            actions taken will
                                           Issued as an   The IRS had already
Credit is claimed and one spouse                                                          correct the issue.
                                           alert in       identified this issue and
has an Individual Taxpayer                 planning.      updated the existing
Identification Number. Per the                            business rule on
eligibility requirements, these                           2/15/2010. It created a
taxpayers should receive the credit                       new business rule on
if one spouse has an Individual                           2/15/2010. Programming
Taxpayer Identification Number as                         changes were
long as one spouse has an SSN.                            implemented on
                                                          2/17/2010.
Tax returns are rejecting in error         2/18/2010      Action Taken                    We agree that the IRS
when a taxpayer with an                                                                   did not have to take
                                                          The IRS had already
Individual Taxpayer Identification                                                        additional actions.
                                                          identified this issue and
Number files a tax return with a
                                                          implemented changes on
Wage and Tax Statement
                                                          2/17/2010 prior to startup.
(Form W-2) that has an SSN.
Generally, an employee’s SSN on
Form W-2 must match either the
primary or the secondary
taxpayer’s SSN on the tax return.
However, the Legacy e-File
system provides an exception for a
taxpayer who e-files with an
Individual Taxpayer Identification
Number even if the Form W-2 was
issued with an SSN.




1
    Specific criteria tax returns must meet before they are accepted for processing.
2
    A number of the conditions we identified involve errors with more than one MeF system business rule.
                                                                                                           Page 23
                            System Errors and Lower Than Expected
                    Tax Return Volumes Affected the Implementation of the
                  Modernized e-File System for Individual Tax Return Processing



                                       Date IRS
               Issue                   Notified         IRS Action Taken             Audit Comment


Tax returns are rejecting in error    2/19/2010      No Action Taken              We agree that the IRS
when the total withholding on the                                                 did not have to take
                                      Issued as an   The IRS did not agree. It
U.S. Individual Income Tax Form                                                   additional actions.
                                      alert in       indicated that tax returns
(Form 1040) is within $5 of the
                                      planning.      with this condition are
total withholding on all
                                                     being correctly rejected.
Forms W-2 and Information
Reporting Documents
(Forms 1099) and a Distributions
From Pensions, Annuities,
Retirement or Profit-Sharing
Plans, Individual Retirement
Accounts, Insurance Contracts,
etc. (Form 1099-R) are present.


Tax returns are rejecting in error    2/24/2010      Action Taken.                We agree that the
when there are multiple                                                           actions taken will
                                                     Changes were
dependents identified on the Child                                                correct the issue.
                                                     implemented on 3/8/2010.
and Dependent Care Expenses
(Form 2441) and the qualified
expenses entered on Form 2441,
line 2(c), were not child-specific.


Tax returns are rejecting in error    2/25/2010      Action Taken.                We agree that the IRS
when a taxpayer names the                                                         did not have to take
                                                     The IRS had already
preparer as the third-party                                                       additional actions.
                                                     identified the issue and
designee by inserting “Preparer”
                                                     implemented changes in
instead of the preparer’s name on
                                                     2/1/2010 updates to the
the Third-Party Designee name
                                                     business rules.
line.


The deduction amount from the         2/26/2010      Action Taken.                We agree that this
New Motor Vehicle Sales Tax                                                       issue has been
                                      Issued as an   Changes were
Deduction worksheet on Itemized                                                   addressed with an
                                      alert in       implemented on 3/7/2010.
Deductions (Schedule A) is not                                                    interim solution to
                                      planning.
being captured by the MeF system.                                                 reduce the burden on
                                                                                  IRS’ external partners
                                                                                  during the filing
                                                                                  season.

                                                                                                 Page 24
                            System Errors and Lower Than Expected
                    Tax Return Volumes Affected the Implementation of the
                  Modernized e-File System for Individual Tax Return Processing



                                       Date IRS
               Issue                   Notified       IRS Action Taken              Audit Comment

Incorrect reject rules are            3/2/2010    Action Planned                 Although the IRS is
generating when there is a                                                       taking interim steps to
                                                  The IRS plans to make
dependent SSN/name control                                                       reduce the burden on
                                                  changes for Release 6.2
mismatch and the business rule                                                   taxpayers, we do not
                                                  for Processing Year 2011.
that requires the dependent SSN                                                  agree that the issue has
                                                  These changes are
and name control to match the                                                    been resolved. The
                                                  complex and, as such, are
e-file database generates. If the                                                issue will not be
                                                  being deferred to a later
Earned Income Tax Credit was                                                     addressed until
                                                  release to mitigate the risk
claimed, the business rule                                                       Release 6.2.
                                                  to this filing season. An
addressing a SSN/name control
                                                  interim plan will be
mismatch for a qualifying child
                                                  implemented to mitigate
also generates.
                                                  the impact on taxpayers.


Tax returns are rejecting in error    3/2/2010    Action Planned                 Although the IRS is
when the taxpayer correctly                                                      taking interim steps to
                                                  The IRS plans to make
provided the prior year Adjusted                                                 reduce the burden on
                                                  changes for Release 6.2
Gross Income and/or Personal                                                     taxpayers, we do not
                                                  for Processing Year 2011.
Identification Number as required                                                agree that the issue has
                                                  These changes are
for electronically filed returns.                                                been resolved. The
                                                  complex and, as such, are
                                                                                 issue will not be
                                                  being deferred to a later
                                                                                 addressed until
                                                  release to mitigate the risk
                                                                                 Release 6.2.
                                                  to this filing season. An
                                                  interim plan will be
                                                  implemented to mitigate
                                                  the impact on taxpayers.

Incorrect reject rules are            3/3/2010    Action Planned                 Although the IRS is
generating when there is a primary                                               taking interim steps to
                                                  The IRS plans to make
SSN/name control mismatch and                                                    reduce the burden on
                                                  changes for Release 6.2
the business rule that requires the                                              taxpayers, we do not
                                                  for Processing Year 2011.
primary SSN and name control to                                                  agree that the issue has
                                                  These changes are
match the e-file database                                                        been resolved. The
                                                  complex and, as such, are
generates.                                                                       issue will not be
                                                  being deferred to a later
                                                                                 addressed until
                                                  release to mitigate the risk
                                                                                 Release 6.2.
                                                  to this filing season. An
                                                  interim plan will be
                                                  implemented to mitigate
                                                  the impact on taxpayers.

                                                                                                 Page 25
                             System Errors and Lower Than Expected
                     Tax Return Volumes Affected the Implementation of the
                   Modernized e-File System for Individual Tax Return Processing



                                       Date IRS
               Issue                   Notified       IRS Action Taken              Audit Comment



Incorrect reject rules are            3/5/2010    Action Planned                 Although the IRS is
generating when there is a                                                       taking interim steps to
                                                  The IRS plans to make
secondary SSN/name control                                                       reduce the burden on
                                                  changes for Release 6.2
mismatch and the business rule                                                   taxpayers, we do not
                                                  for Processing Year 2011.
that requires the secondary SSN                                                  agree that the issue has
                                                  These changes are
and name control to match the                                                    been resolved. The
                                                  complex and, as such, are
e-file database generates.                                                       issue will not be
                                                  being deferred to a later
                                                                                 addressed until
                                                  release to mitigate the risk
                                                                                 Release 6.2.
                                                  to this filing season. An
                                                  interim plan will be
                                                  implemented to mitigate
                                                  the impact on taxpayers.



Incorrect reject rules are            3/5/2010    Action Planned                 Although the IRS is
generating when there is an                                                      taking interim steps to
                                                  The IRS plans to make
employer name/Employer                                                           reduce the burden on
                                                  changes for Release 6.2
Identification Number mismatch                                                   taxpayers, we do not
                                                  for Processing Year 2011.
on Form W-2 and the business rule                                                agree that the issue has
                                                  These changes are
that requires the Employer                                                       been resolved. The
                                                  complex and, as such, are
Identification Number to match                                                   issue will not be
                                                  being deferred to a later
the information in the e-file                                                    addressed until
                                                  release to mitigate the risk
database generates. We also noted                                                Release 6.2.
                                                  to this filing season. An
a similar condition could exist
                                                  interim plan will be
with payer name/Employer
                                                  implemented to mitigate
Identification Number mismatches
                                                  the impact on taxpayers.
on Form 1099-R and the business
rule that requires the Employer
Identification Number to match
the e-file database.



Tax returns were incorrectly          3/5/2010    Action Taken.                  We agree that the
rejecting because the primary                                                    actions taken will
                                                  Changes were made on
taxpayer’s SSN had already been                                                  correct the issue.
                                                  3/28/2010.
used to file a tax return this year
when the primary SSN had not
been previously used.

                                                                                                 Page 26
                              System Errors and Lower Than Expected
                      Tax Return Volumes Affected the Implementation of the
                    Modernized e-File System for Individual Tax Return Processing



                                           Date IRS
                Issue                      Notified           IRS Action Taken                Audit Comment
Incorrect reject rules are                3/12/2010       Action Planned                  Although the IRS is
generating for the Making Work                                                            taking interim steps to
                                                          The IRS plans to make
Pay Credit when there is a primary                                                        reduce the burden on
                                                          changes for Release 6.2
or secondary SSN/name control                                                             taxpayers, we do not
                                                          for Processing Year 2011.
mismatch and the applicable                                                               agree that the issue has
                                                          These changes are
business rules are correctly                                                              been resolved. The
                                                          complex and, as such, are
applied.                                                                                  issue will not be
                                                          being deferred to a later
                                                                                          addressed until
                                                          release to mitigate the risk
                                                                                          Release 6.2.
                                                          to this filing season. An
                                                          interim plan will be
                                                          implemented to mitigate
                                                          the impact on taxpayers.
Tax return information from               4/9/2010        Action Planned                  We agree that the
Interest and Ordinary Dividends                                                           actions, when taken,
                                                          The IRS agreed and is
(Schedule B) on accepted MeF                                                              will correct the issue.
                                                          requesting that computer
system tax returns is not being
                                                          programming changes be
correctly recorded on the IRS’
                                                          made so that interest and
Individual Return Transaction
                                                          dividend amounts are
File.3
                                                          properly recorded on the
                                                          Individual Return
                                                          Transaction File.
Tax returns are being rejected            4/21/2010       Action Planned                  We agree that these
without any business rule                                                                 actions will correct the
                                                          The IRS agreed and will
explanations appearing on the                                                             issue.
                                                          be making changes during
IRS’ Tax Return Database.4
                                                          the week of May 10th to
                                                          update a system table that
                                                          provides the data to other
                                                          IRS systems for several
                                                          new business rules that
                                                          have been added to the
                                                          existing set of rules.




3
  The Return Transaction File contains all edited, transcribed, and error-corrected data from the Form 1040 series
and related forms for the current processing year and 2 prior years.
4
  The IRS’ Tax Return Database contains tax return source information for all electronically filed tax returns.
                                                                                                            Page 27
            System Errors and Lower Than Expected
    Tax Return Volumes Affected the Implementation of the
  Modernized e-File System for Individual Tax Return Processing



                                                  Appendix VII

Management’s Response to Draft Report




                                                          Page 28
          System Errors and Lower Than Expected
  Tax Return Volumes Affected the Implementation of the
Modernized e-File System for Individual Tax Return Processing




                                                        Page 29
          System Errors and Lower Than Expected
  Tax Return Volumes Affected the Implementation of the
Modernized e-File System for Individual Tax Return Processing




                                                        Page 30
          System Errors and Lower Than Expected
  Tax Return Volumes Affected the Implementation of the
Modernized e-File System for Individual Tax Return Processing




                                                        Page 31
